U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

The Solicitor General

October 21, 2019
The Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Michelle Valent v. Andrew M. Saul, Commissioner of Social Security,
No. 19-221

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 16,
2019 and placed on the docket on August 20, 2019. The government's response is now due,
after one extension, on October 21, 2019. We respectfully request, under Rule 30.4 of the Rules
of this Court, a further extension of time to and including November 20, 2019, within which to
file the government's response.
This extension is necessary because the attorneys with principal responsibility for final
preparation of the government's response have been heavily engaged with the press of other
matters before the Court.
Counsel for petitioner does not object to this further extension of time.

Sincerely,

Noel J. Francisco
Solicitor General

cc:

See Attached Service List

19-022 1
VALENT, MICHELLE
ANDREW M. SAUL, COMMISSIONER OF SOCIAL
SECURITY

ANTHONY T. CASO
CHAPMAN UNIVERSITY
FOWLER SCHOOL OF LAW
ONE UNIVERSITY DRIVE
ORANGE, CA 92866
714-628-2650
CASO@CHAPMAN.EDU
FRANK D. GARRISON
NATIONAL RIGHT TO WORK LEGAL
DEFENSE FOUNDATION, INC.
8001 BRADDOCK ROAD
SUITE 600
SPRiNGFIELD, VA 22160
703-321-8510
FDG@NRTW.ORG
ADAM R.F. GUSTAFSON
BOYDEN GRAY & ASSOCIATES
801 17THST.NW
#350
WASHINGTON, DC 20006,
202-955-0620
GUSTAFSON@BOYDENGRAYASSOCIATES .0
OM

KIMBERLY S. HERMANN
SOUTHEASTERN LEGAL FOUNDATION
560 W. CROSSVILLE ROAD
SUITE 104
ROS WELL, GA 30075-7509
770-977-2131
KHERMANN@SOUTHEASTERNLEGAL.ORG
RAYMAOND J. LAJEUNESSE
C/O NATIONAL RIGHT TO WORK LEGAL
DEFENSE FOUNDATION, INC.
8001 BRADDOCK ROAD
SUITE 600
SPRINGFIELD, VA 22160
703-321-8510
RJL@NRTW.ORG

